<html>
<title> - WEAPONS OF MASS DESTRUCTION: STOPPING THE FUNDING</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                      WEAPONS OF MASS DESTRUCTION:
                  STOPPING THE FUNDING--THE OFAC ROLE

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                      OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 16, 2006

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 109-73

                    U.S. GOVERNMENT PRINTING OFFICE
28-101                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                    MICHAEL G. OXLEY, Ohio, Chairman

JAMES A. LEACH, Iowa                 BARNEY FRANK, Massachusetts
RICHARD H. BAKER, Louisiana          PAUL E. KANJORSKI, Pennsylvania
DEBORAH PRYCE, Ohio                  MAXINE WATERS, California
SPENCER BACHUS, Alabama              CAROLYN B. MALONEY, New York
MICHAEL N. CASTLE, Delaware          LUIS V. GUTIERREZ, Illinois
EDWARD R. ROYCE, California          NYDIA M. VELAZQUEZ, New York
FRANK D. LUCAS, Oklahoma             MELVIN L. WATT, North Carolina
ROBERT W. NEY, Ohio                  GARY L. ACKERMAN, New York
SUE W. KELLY, New York, Vice Chair   DARLENE HOOLEY, Oregon
RON PAUL, Texas                      JULIA CARSON, Indiana
PAUL E. GILLMOR, Ohio                BRAD SHERMAN, California
JIM RYUN, Kansas                     GREGORY W. MEEKS, New York
STEVEN C. LaTOURETTE, Ohio           BARBARA LEE, California
DONALD A. MANZULLO, Illinois         DENNIS MOORE, Kansas
WALTER B. JONES, Jr., North          MICHAEL E. CAPUANO, Massachusetts
    Carolina                         HAROLD E. FORD, Jr., Tennessee
JUDY BIGGERT, Illinois               RUBEN HINOJOSA, Texas
CHRISTOPHER SHAYS, Connecticut       JOSEPH CROWLEY, New York
VITO FOSSELLA, New York              WM. LACY CLAY, Missouri
GARY G. MILLER, California           STEVE ISRAEL, New York
PATRICK J. TIBERI, Ohio              CAROLYN McCARTHY, New York
MARK R. KENNEDY, Minnesota           JOE BACA, California
TOM FEENEY, Florida                  JIM MATHESON, Utah
JEB HENSARLING, Texas                STEPHEN F. LYNCH, Massachusetts
SCOTT GARRETT, New Jersey            BRAD MILLER, North Carolina
GINNY BROWN-WAITE, Florida           DAVID SCOTT, Georgia
J. GRESHAM BARRETT, South Carolina   ARTUR DAVIS, Alabama
KATHERINE HARRIS, Florida            AL GREEN, Texas
RICK RENZI, Arizona                  EMANUEL CLEAVER, Missouri
JIM GERLACH, Pennsylvania            MELISSA L. BEAN, Illinois
STEVAN PEARCE, New Mexico            DEBBIE WASSERMAN SCHULTZ, Florida
RANDY NEUGEBAUER, Texas              GWEN MOORE, Wisconsin,
TOM PRICE, Georgia                    
MICHAEL G. FITZPATRICK,              BERNARD SANDERS, Vermont
    Pennsylvania
GEOFF DAVIS, Kentucky
PATRICK T. McHENRY, North Carolina
CAMPBELL, JOHN, California

                 Robert U. Foster, III, Staff Director
              Subcommittee on Oversight and Investigations

                     SUE W. KELLY, New York, Chair

RON PAUL, Texas, Vice Chairman       LUIS V. GUTIERREZ, Illinois
EDWARD R. ROYCE, California          DENNIS MOORE, Kansas
STEVEN C. LaTOURETTE, Ohio           CAROLYN B. MALONEY, New York
MARK R. KENNEDY, Minnesota           STEPHEN F. LYNCH, Massachusetts
SCOTT GARRETT, New Jersey            ARTUR DAVIS, Alabama
J. GRESHAM BARRETT, South Carolina   EMANUEL CLEAVER, Missouri
TOM PRICE, Georgia                   DAVID SCOTT, Georgia
MICHAEL G. FITZPATRICK,              DEBBIE WASSERMAN SCHULTZ, Florida
    Pennsylvania                     GWEN MOORE, Wisconsin
GEOFF DAVIS, Kentucky                BARNEY FRANK, Massachusetts
PATRICK T. McHENRY, North Carolina
MICHAEL G. OXLEY, Ohio


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    February 16, 2006............................................     1
Appendix:
    February 16, 2006............................................    23

                               WITNESSES
                      Thursday, February 16, 2006

Werner, Robert W., Director, Office of Foreign Assets Control, 
  U.S. Department of the Treasury................................     6

                                APPENDIX

Prepared statements:
    Oxley, Hon. Michael G........................................    24
    Kelly, Hon. Sue..............................................    27
    Werner, Robert W.............................................    28

              Additional Material Submitted for the Record

Lee, Hon. Barbara:
    Written responses to questions submitted to Robert Werner....    42


                      WEAPONS OF MASS DESTRUCTION:
                  STOPPING THE FUNDING--THE OFAC ROLE

                              ----------                              


                      Thursday, February 16, 2006

             U.S. House of Representatives,
                          Subcommittee on Oversight
                                and Investigations,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:06 a.m., in 
room 2128, Rayburn House Office Building, Hon. Sue W. Kelly 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Frank, Kelly, Kennedy, Price, 
Davis, Gutierrez, Cleaver, and Scott
    Chairwoman Kelly. This meeting of the Oversight and 
Investigations Subcommittee will come to order. Today's hearing 
is on the role of the Treasury Department's Office of Foreign 
Assets Control (OFAC) in fighting the proliferation of weapons 
of mass destruction.
    The spread of WMD, particularly nuclear weapons, poses the 
greatest threat to the security of the United States and the 
peace of the world. We know, then, that countries such as Iran 
must be dealt with. We have all heard the hateful and ominous 
rhetoric from the president of Iran, and we should all 
recognize the grave threat posed by their possession of weapons 
of mass destruction.
    If Iran is successful, other nations will likely follow its 
example, and Iran itself could become a base for proliferations 
of WMD to enemies of the United States, including terrorist 
groups such as Hezbollah and Hamas. Acquisition of WMD, 
particularly nuclear weapons, is an activity that states cannot 
easily undertake without assistance from nations that already 
possess this technology. Even the United States' own Manhattan 
Project, the first successful nuclear project weapons program, 
required the technical skills not only of our own country, but 
of industry from the British empire, and the best minds of 
Germany, who were forced to flee because of Nazi persecution.
    Recognizing the key role foreign industry plays in WMD 
proliferation, President Bush signed Executive Order 13382, 
blocking property of weapons of mass destruction proliferators 
and their supporters. Under this order, 18 companies have been 
designated as supporters of proliferation, including 6 
companies in Iran, 11 in North Korea and 1 in Syria. This order 
strikes at proliferation by stopping these companies from 
having any access to the U.S. financial system.
    This Executive Order is a powerful weapon to be used 
against WMD proliferators. It can only work to the extent that 
financial institutions and other government agencies cooperate 
with it. Unfortunately, there have been reports that one of the 
largest financial institutions in the world, ABN AMRO, had a 
deliberate policy of not reporting transactions with Iran to 
OFAC. There is a possibility that these transactions going back 
to 1997 may have allowed Iranian companies now listed under 
E.O. 13382 to access the U.S. economy.
    Evasion of sanctions regimes by financial institutions 
endangers the United States and our allies and must be treated 
in a way that reflects the severity of the crimes that are 
facilitated. A recent article in The Wall Street Journal 
reported that more than seven major financial institutions were 
withdrawing from trade with Iran because of increased 
regulatory monitoring. Several of them are under investigation, 
according to filings with the SEC, for possible violations of 
OFAC regulations while they did business with Iran.
    This country should never tolerate businesses making money 
from hostile regimes that are working to develop weapons of 
mass destruction. We must make sure the system that we have in 
place for addressing that is not easily circumvented. OFAC has 
an important responsibility in protecting our national 
security, and I look forward to receiving the testimony of 
Director Werner and working with him to strengthen his agency.
    I turn now to Mr. Gutierrez.
    Mr. Gutierrez. Thank you, Chairwoman Kelly, for calling 
this hearing, the first oversight hearing of 2006. We've worked 
together on many issues and presided over many hearings, 
particularly on today's subject; combatting the financing of 
terrorist activities.
    I want to welcome Director Werner here this morning. The 
last time I recall receiving testimony from OFAC was in June of 
2004. At that time, Mr. Werner's predecessor indicated just how 
much OFAC had grown--from 10 employees to 144--administering 27 
economic sanctions programs.
    I see from the first page of your testimony that you 
currently have 125 employees handling 30 programs. I know that 
not everything can be evaluated in terms of numbers, but at the 
appropriate time I will ask you, Director, if that means that 
you have 20 vacancies currently at OFAC since the last time, 
which was June of 2004, you had 134 employees, and if you're 
working to fill those positions, and whether that work that the 
people were doing was vital.
    Recently, the front page of USA Today had a story called, 
``Fewer Terror Assets Frozen. Lack of Urgency Feared in the 
Front.'' I would ask unanimous consent to place this article in 
the hearing record.
    Chairwoman Kelly. So moved.
    Mr. Gutierrez. Again, while I don't believe that the 
numbers tell the complete story, and certainly immediately 
after 9/11, there was a lot of low-hanging fruit which 
artificially inflated the number of assets frozen at the time, 
I'm concerned about some issues raised in that article as well 
as in the report by the GAO last October.
    The GAO report indicated a number of problems in the 
overall efforts to combat terrorist financing, many of which 
were directly linked to turf battles between Treasury and 
State. While some of those issues are beyond the scope of 
OFAC's activities, and are better addressed by others at 
Treasury, many of your activities require OFAC, as in your 
opening statement again, to work very closely with the State 
Department.
    Therefore, I'm interested in learning what steps OFAC has 
taken in the face of that report to improve its working 
relationship with State and how the roles, responsibilities, 
and procedures are defined when agencies working together on 
designations and blocking.
    Finally, there is a point mentioned both in the USA Today 
article and the GAO report which falls squarely within your 
purview. The GAO recommended that Treasury provide more 
complete information on the nature and extent of asset blocking 
in its annual terrorist assets report to Congress. That's us.
    I was shocked to see that Treasury's reply to the 
recommendation was that the agency objected and instead wanted 
the GAO to recommend discontinuing these reports. When I read 
the GAO report, it said this is what we recommended, this is 
what they responded, and I guess they wrote everything in the 
report. That's what I read. As a Member of Congress, 
particularly a member of the Oversight Subcommittee, I want the 
reports. I understand we should receive the next one in April.
    As I said earlier, I'm not hung up on numbers, but I think 
we need a way to measure effectiveness. If these snapshots do 
not provide us with that ability, please help us figure out how 
to assess your performance and include additional information 
to place the numbers in context. I think that's what the GAO 
report--we said we needed more numbers to place it in context.
    Thank you very much, and I look forward to the Director's 
testimony.
    Chairwoman Kelly. Mr. Price, have you an opening statement?
    Mr. Price. Thank you, Madam Chairwoman. I also want to join 
my colleague in thanking you for calling this hearing and 
welcoming the Director. I look forward to your testimony. I 
would also be interested in your assessment of whether or not 
Congress is getting the kind of information that it needs. 
There's some indication, as Mr. Gutierrez said, that we're not, 
and I would appreciate your comments about that.
    I also am interested in whether or not you are able to 
interact with any other nations who have similar concerns in 
terms of WMD and assisting in limiting the amount of resources 
that are going to folks who are interested in developing that, 
and I haven't seen that in your report. I look forward to your 
testimony and welcome you.
    Chairwoman Kelly. Thank you. And we're joined by the 
ranking member of the Full Committee, Barney Frank.
    Mr. Frank. Thank you, Madam Chairwoman, for this. And I 
appreciate the way you and the ranking member have worked 
together to make the Oversight Subcommittee an effective part 
of our work.
    Mr. Werner, I'm troubled by something that is not your 
responsibility personally. You may be a victim of it, but 
you're here as a representative of the Treasury Department. And 
I read the GAO report. I should say that I don't usually get to 
come to this subcommittee's hearings. I think the chairman and 
ranking member work very well together. They do an excellent 
job on oversight. And with the responsibilities of ranking 
member of the Full Committee, with all of the subcommittees, 
it's hard to get to them all.
    But I was so appalled when I read the GAO report on 
terrorist financing that came out in October, that I had to 
come here. What the GAO says is that there is a major turf 
battle going on between Treasury and State. Shame on us. This 
is an extraordinarily important issue, terrorist financing, and 
we have a State-Treasury dispute, according to the GAO. State 
says it's the lead agency. Treasury says, no you're not. 
Justice says they don't agree with either. And the fact that a 
dispute of this sort goes on and isn't resolved is appalling to 
me.
    So one question I have is, why hasn't this been brought to 
the National Security Council, which I assume would be the 
appropriate place to mediate a serious interdepartmental 
dispute, and have it resolved? The report, from pages 16 to the 
end, talks about serious disagreements and says that this hurts 
our efforts.
    Let me read in the report just the headings. ``State and 
Treasury officials also disagree on procedures and practices 
for the delivery of counterterrorism financing, training and 
technical assistance.'' ``State and Treasury officials disagree 
on the use of OTA funding and contractors.'' ``State, Justice 
and Treasury officials disagree on whether it is appropriate 
for U.S. contractors to provide assistance in the legislative 
drafting efforts.'' ``Treasury and State officials disagree on 
the use of confidentiality agreements between contractors and 
the foreign officials they advise.'' ``State and Treasury 
officials disagree with the procedures for conducting 
assessments of countries' needs for training and technical 
assistance.''
    This is appalling. And I really would hope you will tell 
us, do these disagreements persist? This is a report issued in 
October. Do these disagreements persist? What efforts have been 
made? You know, have any of these six or seven disagreements 
now, have we come to agreement? Maybe you can bring the U.S. 
Trade Representative in and he can negotiate a treaty here. He 
doesn't seem to be doing too well in Dubai. He may have some 
extra time.
    Have these been resolved? If not, what's going on to 
resolve them? Has this gone to the White House? Has it gone to 
the National Security Council? I would think this is what you 
have a National Security Council for. And apparently, you know, 
I should say there may be some Congressional problem here. This 
reports cites some statutes that aren't explicit about some of 
these things. But that's what you have a White House 
coordination body for. And this kind of three-way disagreement 
is a serious problem.
    Now, I also think it does not do, frankly, to ignore 
problems. You make one reference here to the State Department 
and how you work with the State Department in your statement, 
and that's a good thing, but frankly, when you read this GAO 
report, you have to question the kind of bland notion of things 
about how you work together. And as I say, these are not simply 
jurisdictional issues with no substance. These are substantive 
issues.
    And so I will be asking you, do these disagreements listed 
in the GAO report persist? If so, what efforts are being made 
to resolve them? Is there some interagency procedure that is 
set up to deal with them? The persistence of disputes. I mean, 
I've got to say, this is so dysfunctional. I listened to what 
GAO reports, and what Treasury and State think, and I think I'm 
seeing one of these kinds of major disagreements like between, 
you know, I don't know, between the head of FEMA and the head 
of Homeland Security. I mean, we're talking about apparently a 
serious disagreement about how to function, and on something 
that is so important, terrorist financing.
    For the Treasury and State Departments to be in prolonged 
disagreement and for the White House not to have resolved it is 
a serious problem. Some problems you can't fix in the world. 
But I would think these kinds of disagreements over who's in 
charge and what procedures to follow between two American 
governmental departments ought to be solvable if the 
Administration simply had its attention called to it.
    Thank you, Madam Chairwoman.
    Chairwoman Kelly. I thank you. And, Mr. Frank, I would be 
delighted if you are still here that you ask questions, but if 
you are not here, if you want to submit those in writing, we 
will accept them and put them in the record.
    Mr. Frank. Thank you, Madam Chairwoman. I'm going to try 
and stay.
    Chairwoman Kelly. Thank you. I also would like unanimous 
consent to put a statement from Chairman Oxley in the record. 
So moved.
    And we'll turn now to Mr. Davis.
    Mr. Davis. Thank you, Madam Chairwoman. I think in the age 
of the global economy where countries, economies, corporations, 
people, and groups around the world become increasingly 
interconnected, many of our traditional governmental mechanisms 
that we've used for regulation and oversight are not as 
effective as they once were.
    And as we look at this problem, the seriousness of it, I 
see tremendous opportunities for the Treasury and State 
Departments to come into a new type of hybrid relationship 
dealing with these issues at the root.
    And particularly as somebody who's watched the emergence of 
Iranian nuclear capability very, very closely, one of the 
ironies that I have found in that and other purveyors of 
weapons of mass destruction, that some of the very countries 
that are trying to prevent or deter Iran's emergency in the 
nuclear world actually had corporations and businesses who had 
a tremendous vested interest in selling components or 
supporting elements, technologies, providing services, 
infrastructure and construction, that contributed to this 
problem in the long run. So in a sense, it facilitated creation 
of it and now we're trying to solve that problem.
    And I think one of the things that we would hope to hear 
about, and to help you with in any way from our perspective, is 
bringing to account these entities in countries with whom we do 
a tremendous amount of business, have a tremendous amount of 
trade, to prevent and deter them at the root from continuing 
these relationships in the long run.
    And with that, I yield back.
    Chairwoman Kelly. Thank you, Mr. Davis. Our witness today 
is Robert Werner, Director of the Office of Foreign Assets 
Control, U.S. Department of the Treasury. Director Werner has 
led OFAC since October of 2004. Prior to then, he served as 
chief of staff of FINCEN. He has also served in the U.S. 
Attorney's Office, the Connecticut Attorney General's Office, 
and has clerked for two U.S. Supreme Court justices. He is a 
graduate of New York University School of Law, Columbia 
University, and Amherst College.
    We welcome you here this morning and look forward to your 
testimony. You may proceed, Mr. Werner. I assume that you 
understand our light system for the timing. I will extend to 
you as much courtesy as I can, depending on how long you go. 
But because this is a busy place, I tend to try to keep people 
within the 5-minute rules. The green light means there's 5 
minutes. The yellow light means there's 1 minute, and please 
sum up, and the red light obviously means that we're out of 
time.
    Please--we're very interested in this topic, so please 
proceed. Thank you.

  STATEMENT OF ROBERT W. WERNER, DIRECTOR, OFFICE OF FOREIGN 
        ASSETS CONTROL, U.S. DEPARTMENT OF THE TREASURY

    Mr. Werner. Thank you very much. Chairwoman Kelly, Ranking 
Member Gutierrez, and distinguished members of the 
subcommittee. Thank you for this opportunity to discuss the 
Administration's efforts to combat the financial underpinnings 
of the proliferation of weapons of mass destruction.
    I also thank you for your long-standing leadership and 
support in fostering an ongoing dialogue on this and other 
issues concerning national security that affect all Americans.
    OFAC is dedicated to carrying out the complex mission of 
administering and enforcing U.S. economic and trade sanctions 
based on U.S. foreign policy and national security goals. We 
currently have approximately 30 such programs, including 
residual enforcement actions related to programs that have been 
lifted. These programs target rogue nations as well as 
particular groups, entities, and individuals.
    I also note, Madam Chairwoman, that all of the programs we 
administer require that we work closely with a broad range of 
government agencies and private sector industries. We are 
presently making efforts to expand and improve our 
communication with our diverse constituencies, ranging from the 
financial and service sectors to manufacturing and agricultural 
industries. In turn, the cooperation we receive from U.S. 
businesses in complying with sanctions is generally 
exceptional.
    I would now like to turn to the primary reason we are 
gathered here today. In the aftermath of the September 11, 
2001, attacks, the horrifying prospect of WMD falling into the 
hands of terrorist or rogue regimes has become all the more 
real to us. Recent events involving the nuclear programs of 
North Korea and Iran demonstrate the challenge we face.
    Prior to the President issuing the new WMD order, the U.S. 
Government had imposed a variety of other sanctions with 
respect to proliferation of WMD. For example, Executive Order 
12938 authorizes the Secretary of State to impose procurement 
assistance and import bans against foreign entities and 
individuals determined to have contributed materially to the 
proliferation efforts.
    In examining the existing arsenal of financial sanctions 
tools to combat proliferation, however, the President and 
others, such as the members of the Silverman-Robb WMD 
Commission, believe that more could be done. On June 29, 2005, 
as you noted, the President took an additional step by issuing 
Executive Order 13382. This order adds powerful tools, a 
transaction prohibition and an asset freeze, to the array of 
options available to combat WMD trafficking. The strong new 
blocking provisions imposed by the President apply to property 
and interests in property of entities and individuals 
designated under the order.
    By prohibiting U.S. persons from engaging in transactions 
with entities and individuals targeted by the order, we can 
effectively deny proliferators and their supporters access to 
the U.S. financial and commercial systems, cutting them off 
from the benefits of our economy.
    At the same time the President issued Executive Order 
13382, he also designated eight entities in North Korea, Iran, 
and Syria. The entities designated by the President based on 
evidentiary packages developed by OFAC investigators in close 
cooperation with colleagues in various agencies reflect some of 
our government's primary proliferation concerns.
    The risks of WMD proliferation associated with North Korea, 
Iran and Syria are of tremendous concern to all of us. By 
publicly designating entities and individuals that engage in 
proliferation activities and those that support them, we aim to 
first expose their illicit activities. Through public 
designation, we intend to inform third parties who may be 
unwittingly facilitating proliferation through what they 
believe to be legitimate business activity of their association 
with WMD proliferators. We also mean to isolate these 
proliferators financially and commercially by denying them 
access to our system, and to disrupt and impede the operations 
of the WMD proliferators and their supporters.
    While the public designation of these entities by the 
President which exposes their illegitimate activities to the 
light of public scrutiny is very important, OFAC's continuing 
role as part of administering the sanctions program is to look 
behind these entities. For our investigators, the entities 
named by the President represent a starting point as we seek to 
unravel the support networks that enable these entities to 
function.
    In addition, the subsequent designation of any entity or 
individual serves as an additional basis for aggressive 
investigation by OFAC in pursuit of designating additional 
parties. We refer to these as derivative designations, and it 
is this approach, targeting the broader support networks, that 
has over time proved to be a determining factor behind 
successful designations. With decades of experience in 
administering and enforcing dozens of economic sanctions 
programs, one lesson is clear to OFAC: True success is based 
not on isolated designation actions, that is, actions 
undertaken only once with no follow-up. Quite to the contrary, 
our greatest areas of success have been based on sustained 
aggressive action over time that evolves and adapts to match 
the ever-changing methods of our adversaries.
    As we apply the designation criteria of the order to strike 
our adversaries again and again, we disrupt their attempts to 
disguise their illicit activities in the stream of illicit 
commerce. In the context of the new order, this means we target 
not only the missile or bomb maker, but also the procurement 
funds, the brokers and middlemen, the logistical apparatus used 
to move dangerous weapons to market, and the financiers that 
provide the financial mechanisms that facilitate proliferation 
activities. And we've tried to visually display that on the 
slide above, because that's very, very important and key to how 
we approach our designations.
    I should also emphasize that interagency coordination is 
clearly a critical part of the designation process, because we 
have to ensure that our public designation of entities and 
individuals comprising a network do not jeopardize the ongoing 
operations of our colleagues in law enforcement, with the 
intelligence community, and are consistent with our 
government's foreign policy and national security objectives 
and interests.
    Finally, I also think it is important to highlight that 
this new sanctions program underscores the President's 
commitment to work with our international partners to foster 
cooperative efforts against WMD proliferation, including those 
undertaken through the Proliferation Security Initiative.
    In addition, we hope that this program can provide a model 
for other nations to draw upon as they develop their own laws 
to stem the flow of financial and other support for 
proliferation activities as called for in the United Nations 
Security Council Resolution 1540 and the Gleneagles statement 
of the G-8. In that regard, a number of agencies, including 
Treasury and State, have been engaging in active outreach 
across the world.
    Once again, I thank you for the opportunity to discuss 
OFAC's role in this important program, and I would be pleased 
to answer any questions you have.
    [The prepared statement of Mr. Werner can be found on page 
28 of the appendix.]
    Chairwoman Kelly. Thank you so much, Director Werner. 
You're doing very important work. And also thank you so much 
for the slides that you have shown us.
    I've got a couple of questions. First is a question about 
whether or not the United States is concerned that ABN AMRO was 
laundering WMD money for Iran through Dubai. Are you concerned?
    Mr. Werner. I'm very concerned by the kind of activity that 
the ABN AMRO case demonstrated may have been going on. We know 
what was going on with ABN AMRO, and that activity is a real 
threat to OFAC programs, which is why we were so pleased to be 
able to join with the Federal Reserve in taking very, very 
significant action against that bank for what, as you said, 
Madam Chairwoman, was really a very intentional, systemic 
program to strip information out of transactions and thereby 
deny U.S. persons the ability to understand what sort of 
transactions were flowing through the United States.
    Interestingly enough, what we saw in that case was some of 
the transactions that they're shipping information out of the 
United States were, with respect to the underlying 
transactions, not illegal. They were U-turn transactions, which 
are permitted by the Iran program. But other transactions we do 
see landed in the United States. They were not U-turned and 
clearly violative of our programs. And more importantly, the 
practice of stripping that information, while U-turns may be 
okay in Iran, they're not okay in other programs. And that very 
practice was really, really troubling to us.
    We were pleased to be able to make a very strong statement 
with the ABN AMRO action, and we intend to continue to look at 
other situations that may involve other international banks 
involved in that kind of conduct, because as you know, it's 
WMD, it's terrorism, it's narcotics trafficking. It's 
everything that our programs are aimed at that can really be 
circumvented by that kind of systemic program.
    Chairwoman Kelly. Americans now know that Dubai was a 
financial center for Al Qaeda prior to the attacks of 9/11. 
Would Americans be wrong to think that now Iran may be running 
some of its WMD acquisition program through the banks in Dubai?
    Mr. Werner. Dubai is an area, because it is such a growing 
transit point for trade, that is of tremendous concern to us, 
and it's an area that we will continue to try and work on with 
the UAE and with other industries that we regulate, to make 
sure that we can understand what sort of activities are going 
through the ports there and what are the vulnerabilities that 
we face.
    Chairwoman Kelly. Has Treasury ever raised the concerns 
about WMD proliferation and the massive Iran sanctions busting 
with Dubai?
    Mr. Werner. We have; in fact, my Deputy Director just got 
back from a trip to the UAE with an interagency team where the 
issue of proliferation and developing joint ways of addressing 
that was raised.
    Chairwoman Kelly. Were these issues raised when Treasury as 
the head of the Committee on Foreign Investments in the United 
States reviewed and recently approved a Dubai company, Dubai 
Ports World, taking control of six major U.S. ports, including 
the ports of New York and New Jersey?
    Mr. Werner. Madam Chairwoman, I know that's an issue of 
concern to you. It's both outside of my responsibilities at 
OFAC and outside of my knowledge base. I'm unable to address 
that.
    Chairwoman Kelly. Mr. Werner, would you be able to get me 
an answer for that, please?
    Mr. Werner. I will take your question back to Treasury.
    Chairwoman Kelly. What would you say to suggestions that 
Dubai should be a candidate for designation as a jurisdiction 
of primary money laundering concern?
    Mr. Werner. Again, that's outside of the specific OFAC 
role. It's a significant policy issue. I think that while 
there's no question that we have to pay a lot of attention to 
the kinds of activity that may be flowing through the ports in 
Dubai, and my experience has been that our outreach to the UAE 
is well received by them, and that they're anxious to engage in 
a dialogue with us.
    And so again, others would decide whether to designate them 
as a primary money laundering concern. But what I can say is I 
agree with you that it's an area that we have to pay attention 
to. On the other hand, my own feeling is that they're striving 
to work with OFAC on our issues.
    Chairwoman Kelly. Of course they're going to appear to 
strive, simply because they want to buy six major ports. But I 
would hope that you can come back to me with an answer on that 
question I asked about the ports. But I also understand that 
perhaps a bit of cynicism on our part from Treasury in dealing 
with these people might be beneficial.
    I am very concerned about Dubai and their role in what we 
know was funding and passing the money through from Al Qaida 
prior to 9/11.
    I want to ask you another question. Last year, a man was 
indicted in Connecticut for allegedly selling prohibited 
equipment to a branch of the Iranian government which is 
involved in producing ballistic cruise missiles. The indictment 
alleged that he hid the deal using an Iranian bank with a 
branch in the UAE.
    The indictment quoted a fax this individual sent to this 
Iranian weapons agency, and I'm going to read a quote from that 
fax. The quote is, ``All transactions between our firms can be 
handled through Bank Saderat, Dubai, main branch, by directly 
depositing the funds to our account to avoid tracing of foreign 
agencies.''
    Is the Bank Sadarat an entity of specific concern? And if 
not, why not?
    Mr. Werner. Well, Bank Sadarat, which is an Iranian-
controlled bank, is actually under our current Iranian 
sanctions program. No U.S. person is permitted to deal directly 
with that bank. So, yes, Bank Sadarat is an entity of concern 
under our existing sanctions programs.
    Again, Madam Chairwoman, you're raising an excellent point. 
The whole issue, though, of front companies and the possible 
use of UAE incorporated companies by Iranian entities or 
citizens is an issue of concern for us. It's a challenge in all 
of our programs, from the narcotics trafficking program to the 
terrorist program to WMD, which is that as people strive to use 
the formal financial commercial system, they've developed very 
creative ways of creating entities that appear innocent but 
aren't. And that is one of the areas in which we've attempted 
to target our resources. It's very labor intensive. The more 
transparency we can get in our system--as well as in the 
systems of other countries--the more that will facilitate our 
ability to trace people as they create these front companies.
    Chairwoman Kelly. Well, clearly, this gentleman felt that 
all he had to do was be at Bank Sadarat in a Dubai branch, 
which raises the concern of how carefully OFAC is looking at 
branches, international branches of banks.
    I'm interested in knowing whether or not Bank Sadarat used 
money for other groups like Hezbollah and Hamas. Should the 
British be concerned about the fact that Bank Sadarat has a 
very large office in London?
    Mr. Werner. I think as the Director of an entity that 
spends a lot of time administering the Iran sanctions program, 
I'm concerned about any Iranian bank and the branch of any 
Iranian bank. I would suggest that other countries should be as 
well.
    We know that one of the things we need to do is engage in 
very robust international outreach, and OFAC does some of this, 
but other parts of Treasury and State are also engaged in this, 
because we're only as good as our weakest link. And the fact of 
the matter is, without really gaining international consensus 
on these issues, it's very, very difficult to completely 
disrupt the flow of finances. And so, these are issues of 
concern.
    Chairwoman Kelly. I would hope that they would be 
addressed. The Wall Street Journal reported last year that the 
United States suspects the Bank of China of laundering North 
Korean money. I'd like to know whether you feel this is true; 
has that issue ever been raised with the Chinese; and has the 
bank become another candidate for Treasury Department 
designation like Banco Delta Asia was?
    Mr. Werner. Madam Chairwoman, I apologize. I can't comment 
on any specific examples that may or may not be under 
investigation, but what I can tell you is that we are 
constantly as a general matter looking at major financial 
centers and major banks to see if there's facilitation in any 
of the areas that we administer our programs, whether it's WMD, 
terrorism, narcotics trafficking, or even our country programs.
    And I think in that respect, the ABN AMRO action is a good 
example of that, where the result of that action is a major 
bank that is completely reforming the way that it operates 
internationally, including beginning to use the OFAC list to 
screen all currency transactions, not just U.S. dollar 
transactions. Therefore, I'm in complete agreement with you 
that OFAC, with the resources it has, needs to stay vigilant 
and keep track of all these institutions and take aggressive 
action wherever we find systemic violations.
    Chairwoman Kelly. Since you brought up ABN AMRO, I have one 
last question about that. A Wall Street Journal article 
indicated that the chairman of ABN AMRO, Chairman Grunick, 
ordered the destruction of an internal review of the bank's 
dealings with Iran and Libya. He apparently rescinded this 
order, but he had ordered it. Has OFAC seen the document? And 
if so, can you characterize it for us?
    Mr. Werner. I have not seen that document.
    Chairwoman Kelly. Is that something--you are aware of the 
document?
    Mr. Werner. I would need to go back and review what parts 
of the record that OFAC has that are open source versus not 
open source.
    Chairwoman Kelly. Perhaps, Mr. Werner, you could get an 
answer for me on that one also?
    Mr. Werner. I will be happy to do that.
    Mr. Werner. Thank you very much. I turn now to Mr. 
Gutierrez.
    Mr. Gutierrez. Hi. I'd ask unanimous consent, Madam 
Chairwoman, to yield my time and turn to the ranking member of 
the Full Committee, Congressman Barney Frank. Thank you.
    Mr. Frank. I thank the ranking member. I appreciate it. Let 
me say, Mr. Werner, none of this may be your fault, and some of 
it may not be your responsibility, but it is so important, I'm 
going to ask you to comment, and if you can't give me the 
answer, then you can go back and get it.
    You do mention in here that you work with State, although I 
must say a little more optimistically than I would have thought 
after reading this. First point of disagreement. There were six 
separate disagreements. I'm going to ask you about each one, 
the status of it.
    In the report that came out in October--maybe things got 
cleared up:
    Treasury does not accept State's position that State needs 
all U.S. counterterrorism financing, training, and technical 
assistance. Disagreements continue between some Treasury and 
State officials concerning the Terrorist Financing Working 
Group. According to State, State leads the U.S. effort to 
provide counterterrorism financing, training, and technical 
assistance to all countries the U.S. Government deems 
vulnerable. According to Treasury, State's role is limited to 
coordinating other U.S. agencies' provisions of 
counterterrorism financing, and there are numerous other 
efforts outside of State's program.
    Does that disagreement persist?
    Mr. Werner. Congressmen, none of the issues on technical 
assistance do fall within OFAC's purview. Those involve other 
components of Treasury. What I can tell you is, because I'm 
very proud of it, is that our cooperation with not just the 
State Department but the Commerce Department and other agencies 
that we have to deal very closely with on our programs, is 
excellent.
    We work closely with the State Department not only in 
designations that our investigators are working on, but also in 
very significant--
    Mr. Frank. Does that mean, then, that the Secretary of the 
Treasury or whomever is in charge of this overall, could learn 
from you how to play well with the others and maybe give that 
instruction to your colleagues?
    Mr. Werner. I don't believe that Treasury agreed--or State 
agreed that the disconnect that was in the GAO report 
accurately reflects the state of play between Treasury and 
State.
    Mr. Frank. Well, you think these disagreements are wrong. 
Is there a disagreement between--does Treasury accept the fact 
that State is the leader of all counterterrorism financing, 
training, and technical assistance or does State no longer 
believe that?
    Mr. Werner. Congressman, I think I'd have to bring your 
questions back to the people at Treasury.
    Mr. Frank. All right. Well, then, I agree with that, but if 
you don't want to answer, or if you're not able to answer, 
that's okay. But then you shouldn't answer. I mean, if you 
can't answer, okay. But then don't--I'm troubled if you tell me 
you can't answer but then there's no real problem, because 
that's an answer. And then I will have to try and probe that.
    Now, let me ask you this. Yes, this talks about OTA that 
it's not true, but it says State, Justice, and Treasury 
disagree on whether it is appropriate for U.S. contractors to 
provide assistance in the legislative drafting efforts on anti-
money laundering and counterterrorism financing.
    Does that involve you at all, drafting of anti-money 
laundering and other legislative proposals?
    Mr. Werner. Congressman, I'm going to take your advice and 
tell you that I can't answer.
    Mr. Frank. Are you not involved in the legislative drafting 
of money laundering?
    Mr. Werner. I am not involved in that, and OFAC does not 
provide that sort of technical assistance.
    Mr. Frank. Okay. Well, I would then ask, Madam Chairwoman, 
perhaps we could write to the Secretary, and to the Secretary 
of State. There are from pages 14 through 18, 6 separate 
disagreements listed, and I would ask that we ask both State 
and Treasury about that and maybe ask people to come and have a 
hearing, and maybe we could even approach, because we ought to 
set a good example about turf, our colleagues, our counterparts 
at the International Relations Committee, and maybe we could 
have a joint hearing with both State and Treasury, and it might 
be I think a useful thing for us to be able to help resolve 
this.
    Chairwoman Kelly. I think that sounds like a good idea. 
Actually, this committee's staff has been working with OFAC 
staff to see if we could have a hearing on the broader aspects 
of this, possibly in March.
    Mr. Frank. I appreciate that, and I yield back.
    Chairwoman Kelly. Thank you. Mr. Price.
    Mr. Price. Thank you, Madam Chairwoman, very much. Mr. 
Werner, I won't give you any instructions about how to answer, 
for fear that you might not answer.
    I appreciate your testimony. I am struggling a bit, though, 
because I think there's a disconnect between your report and 
certainly the GAO report, and I'm struggling as to whether or 
not to probe the process that you're going through or whether 
or not to ask questions about specific incidents.
    But I do want to point to the GAO report for a couple of 
the conclusions that they reach. One is that OFAC reports on 
the nature and extent of terrorists' U.S. assets don't provide 
Congress with the ability to assess your achievements. Do you 
agree or disagree with that statement?
    Mr. Werner. That is an OFAC issue, and I would agree with 
that statement, and we were working on new metrics during the 
time that the report was being formulated.
    In addition, the TAR Report, which was historically never 
intended to be a performance-based report, was looked at as 
well and we saw that the way it was formatted was not as 
informative as it could be. So that's why the submission of 
that report is delayed, because we are working on reformatting 
that information so that it also will be more useful.
    Mr. Price. Your testimony to us would lead me to believe or 
would lead one to believe that we're doing very well, that 
we're tracking what we need to track, and that we're having a 
positive effect. But I'm not certain that I can sit here with 
all confidence and say that, yes, in fact that's what's 
occurring. Are you able to give me any greater confidence or 
give us greater information which would give us that 
confidence?
    Mr. Werner. I would note that the 9/11 Commission gave 
terrorist financing an A-minus, so hopefully that was some 
indication that we were on the right track. But beyond that, 
it's easier to measure things with numbers, and so people tried 
to grab things that had quantitative aspects, and freezing 
assets was one of them. And again, right after 9/11, there was 
a lot of low-hanging fruit, and there were a lot of assets that 
were frozen.
    But, frankly, that's just not a good measure of the overall 
success of a program, because the assets we freeze are only one 
component of what we do. What we're really trying to do is 
disrupt the network. And, frankly, whether they have assets 
within the United States or not, a designation that disrupts 
their ability to transact business in the international economy 
is disruptive and effective. And we have indications that is 
the case. We see other countries beginning to work with us on 
our various programs and joining us in freezing assets.
    We see them excluding business from their jurisdictions. We 
also begin to see banks voluntarily pulling their business out 
of Iran or other jurisdictions. Even when they're outside of 
our jurisdiction now, they're telling us they're going to use 
the OFAC list to screen transactions, even transactions that 
are not in U.S. dollars.
    Those are all indications to me that our programs are being 
effective, not only in terms of asset freezing and not only in 
terms of disruption and exclusion from the U.S. economy, but in 
creating awareness and exposing and isolating terrorists and 
drug traffickers and proliferators internationally.
    And so, while some of these things are anecdotal, and we 
have to collect information over time, I do believe that we're 
seeing positive results. We can always do better. We can always 
do more. We're allocating the limited resources we have as best 
we can. But I would say that I can assure you that our programs 
have a positive effect, and they're meeting objectives that we 
set in terms of disruption and isolation and exposure.
    Mr. Price. Thank you. I appreciate that. The subcommittee 
here has found the task of tracing the assets of foreign 
leaders, and has been somewhat stymied with bank secrecy laws. 
And so the relative lack of transparency that exists in many 
other nations, how can you ever know whether front companies 
anywhere are working with terrorist financing?
    Mr. Werner. Congressman, you've hit on an excellent issue, 
a very difficult issue. In some countries, for example, in 
Colombia, our narcotics trafficking program is very effective 
because we've been able to work with the Colombian government 
on their corporate laws and their transparency. And as they've 
become more transparent, working together, our two countries 
have become much more effective in tracking front companies and 
networks.
    In other places where there isn't that kind of 
transparency, it's very difficult. And I would add, in the WMD 
program, it's particularly difficult because we're dealing not 
just with private entities. In many cases, we're dealing with 
governmental entities, and their ability to impact the official 
records that would lead you to be able to trace corporate 
entities makes it even more challenging. So this is a very, 
very significant challenge for us.
    As we administer these programs, we're going to hopefully 
learn how to get around that or work within it, but it's going 
to require a lot of international outreach. It's why we do need 
to work closely with the State Department. It's why OFAC needs 
to rely very heavily on other elements of TFI as they do 
outreach through FATF and through the G-8 and other 
international bodies; it's critical in order for us to be 
effective in the way we administer these programs.
    Mr. Price. My time has expired, but I do want to commend 
you for what you're doing. And I know that you know that your 
work is incredibly vital to each and every American citizen, 
and I appreciate what you're doing and ask you to view us 
please as partners and allow us to assist you if there's 
anything that we can do to help you accomplish your efforts.
    Mr. Werner. I appreciate that. Thank you, sir.
    Chairwoman Kelly. Mr. Gutierrez.
    Mr. Gutierrez. Let me ask you a question about the GAO 
report. Maybe you can answer this question. I hope you can. Why 
did Treasury ask the GAO to recommend the discontinuation of 
your annual terrorist assets report to Congress? Do you feel it 
should be discontinued? And why or why not? I understand the 
next one will be ready in April.
    Mr. Werner. I'm a little bit confused by that question, 
because I was not aware that we had asked for the elimination 
of that report. I know that there's another report that 
Treasury was responsible for being involved in that I think 
Treasury did maybe seek to have eliminated.
    Mr. Gutierrez. Okay. And given the lack of time and the 
confusion between what I understood the GAO report to say and 
what you're testifying the GAO report might have said, could 
you report back to us on just what it was Treasury asked the 
GAO you should discontinue? There's no disagreement that there 
was a discontinuation of something.
    Mr. Werner. I'll have to get back to you on that. I don't 
want to misstate something. And I'm not really sure.
    Mr. Gutierrez. Just get back to us and tell us what annual 
report it was that the GAO report actually was correct or 
incorrect about when Treasury asked that it be discontinued.
    Mr. Werner. Sure.
    Mr. Gutierrez. Okay. The decline in OFAC's staff from 144 
in June to 125 today. I see your testimony provides for 10 
additional employees to implement Executive Order 13382, and 15 
additional positions.
    Will this simply bring up your numbers to 2004 numbers? Or 
are there vacancies present? And how are you doing more work 
with fewer employees? Is that okay? Or you just need to hire 
people? What's going on?
    Mr. Werner. What happened there is that a component of 
OFAC, the Foreign Terrorist Division, was transferred into the 
new Office of Intelligence and Analysis that was established in 
2004, and there was a transfer of about 23 analysts.
    The reason that was done is that they were all working on 
the terrorist targeting programs, which were very, very heavy 
intel-related programs. And it was believed, and I think it's 
proven to be true over the last year, that moving those 
analysts into the Office of Intelligence and Analysis headed by 
an Assistant Secretary that was an intel professional, would 
enhance their ability to do their work. And I think we've seen 
that.
    I remain a customer, because the designations are still 
done under my authority, and we still administer and enforce 
the programs. But that was why OFAC went from the 144, went 
down. This year actually we've got an additional 10 FTE's that 
have been allocated. Next year, under the President's budget, 
we're requesting an additional 25 positions or 15 FTE's. But 
those are really--
    Mr. Gutierrez. So you sent people over to another division, 
and you still get the information, but they're working under 
another system?
    Mr. Werner. That's correct.
    Mr. Gutierrez. That clears up the mystery. I just wanted to 
make sure if you needed any help or what was going on, maybe if 
people weren't getting hired.
    I want to ask you a question. Do you agree with former 
Under Secretary Guru's comments in USA Today? Specifically, he 
said, a lack of urgency is hurting efforts to block terrorist 
financing. Is OFAC a priority within Treasury? Is your work a 
priority for this Administration? What about the former Under 
Secretary's comments, that a lack of urgency is hurting the 
blocking of terrorist funding?
    Mr. Werner. I don't agree with those comments. I don't 
understand what they're based on.
    Mr. Gutierrez. Did you read the article?
    Mr. Werner. I did.
    Mr. Gutierrez. Okay.
    Mr. Werner. I know when I see our investigators working all 
hours of the day and night, the motivation and enthusiasm in 
which not only Treasury approaches the work we do, but in the 
interagency, I see no lack of urgency. This is complicated 
work. Terrorist financing in particular is very, very 
difficult, because as you all know, you're taking good money 
and turning it into bad. The amount of money you need to 
involve yourself in terrorism is small compared to other areas. 
For example, in WMD, you're usually dealing in large volumes of 
money. It is very difficult to detect and track. There are a 
lot of other sensitivities, operational, law enforcement, and 
others, that impact the way designations go forward.
    And I see no lack of urgency at all. In fact, to me it's 
impressive that people day after day, month after month, year 
after year, have been able to sustain the sort of effort that 
they're currently engaging in.
    Mr. Gutierrez. Let me ask you one last question then, 
Director. The GAO noted that turf battles with State have hurt 
your ability to coordinate efforts within our own government. 
Do you agree or disagree with that statement?
    Mr. Werner. I can only speak to my experience as the 
Director of OFAC.
    Mr. Gutierrez. Speak to your experience as best you can.
    Mr. Werner. My experience is that interagency cooperation 
on the programs we administer is excellent. I meet monthly with 
my counterpart from EB. Our staffs are interacting constantly. 
State is involved in foreign policy guidance on the licenses we 
issue. We participate in numerous interagency working groups 
involving the State Department. I have daily contact with 
someone from the State Department on at least one of our 
programs. And I actually am very impressed that it's as good as 
it is, because bureaucracies often don't interact well. We seem 
to have a system where we understand each other's roles and 
responsibilities, and we coordinate very well.
    Mr. Gutierrez. Thank you, Mr. Director.
    Chairwoman Kelly. Thank you very much. Mr. Cleaver.
    Mr. Cleaver. Thank you, Madam Chairwoman. Mr. Werner, thank 
you for being here. On a scale of one to ten, ten being the 
highest, where are we in terms of detecting and interrupting 
the flow of funds to terrorist organizations?
    Mr. Werner. It's a hard question to answer, because even 
though you've given me a one to ten scale, it's not clear what 
it's relative to.
    Mr. Cleaver. One to five.
    Mr. Werner. Rather than give you a number, I'd rather give 
you a narrative, because I think we're still learning. It's a 
very, very complicated, difficult area. What I can tell you is 
I believe that we continue to improve. The effort is high.
    We're seeing success in areas--what we're beginning to see 
is that there are overlaps in some of our programs. WMD and 
terrorism are a good example of two programs that can 
complement each other. And my sense is as we gain increasing 
international cooperation and sophistication so that other 
countries pass laws that support our efforts and they gain 
expertise in how to implement programs like ours, that we're 
having increasing success.
    At the end of the day, we're only as strong as the weakest 
link. I know you've all heard that many times, but it's true. 
So that to really be successful from an economic terrorist 
financing perspective, we do need international consensus 
cooperation and implementation.
    Mr. Cleaver. Let me ask the question another way, and you 
may have hit on it at the end of your comments. Are there any 
gaps in OFAC that Congress can close? If you were sitting here, 
are there things that you would want to do to strengthen your 
job, and to further reduce the opportunities for terrorists to 
have their operations funded?
    Mr. Werner. Well, one of the things--yes. The answer is 
yes. And I think what I would do is point to the President's 
2007 budget request where he seeks 25 additional positions for 
OFAC, which considering we're an organization of approximately 
125 people, is a very significant request. And a large piece of 
that is intended to permit us to have additional resources 
necessary to do the kind of follow-up on primary designations 
that is so essential.
    As I testified, what's critical to the effective 
implementation of any economic sanctions program, is that you 
don't just designate the bomb builder or the bomb thrower or 
the drug manufacturer, but also the network that it supports. 
And as the terrorist organization morphs and changes its name 
or shifts its funding to a sister entity, we need to be able to 
have the resources to track that, stay on top of it, and 
redesignate or add supplemental designations. And to do that, 
we really need additional resources.
    Mr. Cleaver. So the answer is yes, and--do you have--one 
final question, Madam Chairwoman. The cost of the new personnel 
or additional personnel, do you remember offhand what that was?
    Mr. Werner. It comes out to 15 FTE's. Well, our total 
request for WMD and terrorism was, I think, about 13 FTE's in 
actual funding, because it will take us a while to hire and 
bring on board. I don't recall the exact dollar amount that it 
comes to, but we can get that to you.
    Mr. Cleaver. Is it detectable in the budget?
    Mr. Werner. Yes. Yes. It's broken out in the budget.
    Mr. Cleaver. Okay. Thank you.
    Chairwoman Kelly. Thank you, Mr. Cleaver. Mr. Werner, the 
President of the United States has drawn attention to the super 
bills used by North Korea to fund its illegal activities. This 
is not well understood, and I wonder if you could explain to 
the committee how counterfeiting, especially in North Korea, 
facilitates the acquisition of WMD technology.
    Mr. Werner. Again, you're stepping beyond my personal 
expertise, and we can follow up with experts to get you a more 
complete briefing in response. But the obvious answer is that 
as they counterfeit U.S. dollars, because they're very 
sophisticated at it, it gives them capital to make 
acquisitions.
    Chairwoman Kelly. Thank you. If you would follow up, I 
think that would be helpful, because then it will give all the 
committee members an idea of how this works. And I'm not sure 
there's a great deal of knowledge on that.
    I also want to point out that when you showed your first 
slide, you actually have two others.
    Mr. Werner. Yes.
    Chairwoman Kelly. I'd like to know if you would like to 
show those two slides and discuss them with the committee.
    Mr. Werner. I'd be delighted to, if that's okay.
    Chairwoman Kelly. Of course.
    Mr. Werner. This slide was intended to just demonstrate the 
designation process. At times I think people don't really 
understand how incredibly comprehensive it is and how much it 
does involve an interagency process.
    And so what this slide depicts is that we begin with 
identifying a target. And the identity of a target can flow 
from a lot of different sources. It can flow from open source, 
from a newspaper article. It can come from law enforcement 
sensitive information. It can flow from intelligence. But based 
on an all-source review, our analysts are constantly generating 
targets.
    Once a target is identified, that begins the evidentiary 
process in which additional information and evidence are 
collected. An actual evidentiary is drafted. It's important to 
remember, though, during this entire process, we're constantly 
coordinating with other agencies and deconflicting, because you 
can have law enforcement equities, you can have diplomatic 
concerns. There are other operational issues that we need to 
carefully vet with other agencies so we don't disrupt their 
processes as well.
    But as it moves through the process, we reach a point where 
we draft an evidentiary, which is essentially an administrative 
record for the designation, which then undergoes a legal review 
both by lawyers at the Treasury Department as well as at the 
Justice Department. We then have a formal interagency 
coordination. The Executive Orders generally require, and the 
WMD one does, concurrent consultation with other agencies. The 
WMD Executive Order specifies the State Department and the 
Justice Department but also refers to other appropriate 
agencies.
    And finally, if the deconfliction is resolved and the 
evidentiary is legally sufficient, we'll actually send it in 
for a final agency review. And that then results in a public 
announcement, and everybody knows about the OFAC list. And we 
do publish the identifying information of the entity on our 
list.
    We also, at the same time we designate, blast out notices 
to thousands of financial institutions and to State and local 
law enforcement components, as appropriate, and to Federal 
components. And we make sure our lists are incorporated into 
appropriate databases, such as the Visa databases. That's 
essentially a very abbreviated version of our designation 
process.
    And then I think the next slide goes to just trying to 
depict how incredibly broad our authorities are. When we 
actually designate, that results in a block of any interest of 
a targeted person or entity that comes within the jurisdiction 
of the United States or a U.S. person. And that doesn't just 
refer to bank accounts and money. It also includes houses and 
cars and, frankly, future interests, such as inheritances--all 
are blocked by our action.
    And as our list-based programs grow, we, in fact, are 
beginning to collect blocked houses and cars and other things, 
which is interesting, because unlike in a seizure where the 
Federal agency will take title to the property, OFAC does not. 
We are not the custodian. The assets are merely blocked. And so 
that can often create some interesting and complicated 
licensing and maintenance issues for us.
    Chairwoman Kelly. Thank you. That's very interesting. And 
we've been joined now by Mr. Scott. Mr. Scott, do you have any 
questions?
    Mr. Scott. Certainly. Thank you very much, Chairwoman 
Kelly, for your leadership on this important issue. And may I 
add that I feel our committee is making significant progress. 
Terrorist organizations certainly need money to function. And 
according to the 9/11 Commission, our efforts to freeze 
terrorist assets is in many ways the crown jewel of the Federal 
anti-terrorism campaign, and we're very proud of that. It's an 
area in which we are succeeding the most, but we certainly can 
do better.
    And with that in mind, let me ask you this. Recent media 
reports describing a significant decline in the amount of 
terrorist assets frozen since September 11th have cited a lack 
of cooperation and commitment among different Federal agencies, 
and other countries. I think that this really is sort of the 
stone in our shoe in terms of even making further progress. 
Cooperation between the Federal agencies involved in this, and 
cooperation with other countries.
    Can you describe for me the plans that you have and the 
plans that you have implemented or that you're working on which 
would reverse this trend of a failure of communications and 
cooperations between agencies and countries?
    Mr. Werner. Certainly. To address the asset freezing issue 
first, I think in many ways a decline in assets frozen under 
any particular program can actually be evidence of the success 
of that program, because as you drive people out of the use of 
the former financial system, you're naturally going to exclude 
them from our trade and transactions with the United States, 
and there will be less assets available to freeze.
    But also I think it represents the fact that many of the 
designations we're doing now are involving networks in 
concentric circles around from the obvious targets that were 
designated right after 9/11. And so I don't look to the amount 
of assets frozen as really determinative of performance. I 
think we really concentrate on whether we have evidence that 
we're disrupting networks and disrupting the ability of the 
networks to do business.
    With respect to cooperation, I think the GAO report was 
targeted at an area that is outside of OFAC's scope of 
responsibility, which is the technical assistance provided 
internationally. And I'll let others in the Treasury and State 
Department address that particular issue.
    But with respect to cooperation within my programs, the 
cooperation is really excellent. We work hand-in-glove with the 
State Department not just on the designation components of our 
programs, but also with respect to very difficult licensing 
decisions and enforcement decisions that we make. And we have 
interagency groups that we participate in, in all of our major 
programs, where we do joint targeting with multiple agencies 
and we rely, for example, in the weapons of mass destruction 
program, our investigators--this is a new program for us. We're 
learning the technical aspects of that program.
    And we rely very heavily on expertise from other 
department, the Department of State, Department of Commerce, 
Department of Energy, where there are folks who have years and 
years of knowledge and experience dealing with WMD-related 
issues. So that from that perspective, we couldn't get our work 
done without that cooperation, and we emphasize it, and it's a 
culture that is important for me to instill within my 
organization.
    Mr. Scott. Do you know of any countries that you could sort 
of point to that might not be cooperating with us as much as 
we'd like? Countries that offer more of a challenge than 
others.
    Mr. Werner. I think with respect to cooperation, I would 
defer to my colleagues at the State Department and others 
within Treasury who deal more directly with international 
liaison. That's not to say that OFAC isn't involved in 
international outreach. We are. We do a lot of very technical 
compliance with international banks and with other governments 
on OFAC-related programs.
    There are areas of concern. Obviously, the Gulf is a region 
where there's a lot trade and financing going on there that we 
know we need to pay attention to. And there are other areas--
for example, we're very focused on Iran and North Korea and 
Syria at this time. Those countries not only are a risk when it 
comes to weapons of mass destruction, but they are state 
sponsors of terrorism. And those are some of the areas that we 
have a lot of concerns about and direct a lot of our resources 
to.
    Mr. Scott. Okay.
    Chairwoman Kelly. Thank you very much, Mr. Scott. We've 
been called for a vote. There are no more questions. Without 
objection, your written statement, your full written statement, 
Mr. Werner, will be made part of the record. And the Chair 
notes that some members may have additional questions, and 
certainly there are some you are going to come back with 
answers for, for this panel. There may be some questions 
submitted in writing. So, without objection, the hearing record 
will remain open for 30 days for members to submit written 
questions to this witness and to place their responses in the 
record.
    With that, this hearing is adjourned with great thanks to 
you, Mr. Werner.
    Mr. Werner. Thank you very much.
    [Whereupon, at 11:12 a.m., the subcommittee was adjourned.]


                            A P P E N D I X



                           February 16, 2006

[GRAPHIC] [TIFF OMITTED] T8101.001

[GRAPHIC] [TIFF OMITTED] T8101.002

[GRAPHIC] [TIFF OMITTED] T8101.003

[GRAPHIC] [TIFF OMITTED] T8101.004

[GRAPHIC] [TIFF OMITTED] T8101.005

[GRAPHIC] [TIFF OMITTED] T8101.006

[GRAPHIC] [TIFF OMITTED] T8101.007

[GRAPHIC] [TIFF OMITTED] T8101.008

[GRAPHIC] [TIFF OMITTED] T8101.009

[GRAPHIC] [TIFF OMITTED] T8101.010

[GRAPHIC] [TIFF OMITTED] T8101.011

[GRAPHIC] [TIFF OMITTED] T8101.012

[GRAPHIC] [TIFF OMITTED] T8101.013

[GRAPHIC] [TIFF OMITTED] T8101.014

[GRAPHIC] [TIFF OMITTED] T8101.015

[GRAPHIC] [TIFF OMITTED] T8101.016

[GRAPHIC] [TIFF OMITTED] T8101.017

[GRAPHIC] [TIFF OMITTED] T8101.018

[GRAPHIC] [TIFF OMITTED] T8101.019

[GRAPHIC] [TIFF OMITTED] T8101.020


</pre></body></html>
